ALPERT
BARR GRANT
A Professional Law Corporation
15165 Ventura Boulevard • Suite 200 • Sherman Oaks, CA 91403
Phone: (818) 881-5000 • Fax: (818) 881-1150
www.alpertbarr.com
DAVID M. ALMARAZ, ESQ

dalmaraz@alpertbarr.com

Direct Dial (818) 827-5172
*Licensed to practice in California

September 17, 2021

Danny Bickell
Deputy Clerk for Practice and Procedure
Supreme Court of the United States
One First Street
NE Washington, DC 20543
Re: No. 21-27, Arrow Highway Steel Inc., v. Robert Dubin
Dear Mr. Bickell:
I am counsel for respondent in the above-referenced case. On July 7, 2021, a petition for a writ of certiorari
was docketed in this case, and on August 30, 2021, the Court requested that a response be filed. Unless
extended by the Court, the response would be due on September 29, 2021. For the reasons that follow, and
pursuant to Rule 30.4, I respectfully request an extension of 30 days, to and including Friday, October 29,
2021.
Following the Court's request for a response, I have a number of significant obligations in other matters that
will make it extremely difficult to prepare a response by September 29, 2021. On September 13th and 14th
2021, I had two all day mediations. I currently have trials scheduled for September 23, 2021 and
September 27, 2021 with a third one to be scheduled in the last week of September 2021. I also have been
preparing for an evidentiary hearing that is set in October 2021 that requires the review of a significant
amount of documents and preparation of multiple witnesses.
In addition, my staff is currently working from home due to the Covid-19 pandemic. As a result, finalizing
briefs and exhibits is more complicated and takes longer to finalize than usual. I also have personal
commitments that will make it difficult to file the response by September 29, 2021. My college-aged
daughter left for school at the beginning of September 2021. My two high school-aged children started high
school again. Their school has allowed in person learning for the entire school for the first time in eighteen
(18) months. This has been a big change for them, and it has required my wife and Ito spend more time with
them.

791271.1

ALPERT
BARRY GRANT
A Professional Law Corporation

Danny Bickell
Deputy Clerk for Practice and Procedure
Supreme Court of the United States
September 17, 2021
Page 2

An extension will allow my office to meet these obligations while preparing a response that adequately
addresses the points raised in the petition. For these reasons, I ask that an extension be granted to and
including October 29, 2021. Thank you for your attention to this matter.
Very truly yours,

DAVID M. AL ARAZ, ESQ
for ALPERT, BARR & GRANT
A Professional Law Corporation
cc:

791271.1

Paul Lindsey Hoffman

